No. ____________
IN THE

CESAR RAUL ACEVES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Gary Rowe, counsel of record for Petitioner Cesar Aceves, and a member of
the Bar of this Court, hereby certify that on February 8, 2021, a copy of petitioner’s
Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit was send by Federal
Express two-day delivery service to the Solicitor General of the United States,
Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W., Washington,
D.C., 20520-0001, counsel for the Respondent.

